                                                 U.S. Department of Justice

                                                 United States
                                                 District       Attorney
                                                          of Vermont
                                                 United States Courthouse and Federal Building




                                                 Post Office Box 570                                  (802) 951-6725
                                                 Burlington, Vermont 05402-0570                  Fax: (802) 951-6540


                             PRESS RELEASE
                     BURLINGTON, VERMONT March 2, 2012

         UNITED STATES SETTLE WITH RAILROAD CONTRACTOR


       The United States Attorney’s Office announced today that it has entered into a
settlement with Drummac, Inc. (“Drummac”), a Jacksonville, Florida based railroad
contractor, resolving potential liability relating to the performance of Drummac’s
contractual obligations and payment arrangements with the National Railroad Passenger
Corporation (“Amtrak”) for service and maintenance of the Vermonter train in St. Albans,
Vermont during the period of July 1, 2000 through December 31, 2009.

       The settlement resolves an investigation into Drummac’s practices with regard to
the use of external power and shutting down the Vermonter train in St. Albans, Vermont
while the train was sitting in the station overnight between arrival and departure.

       The Government believes that it had good cause to initiate civil litigation under the
False Claims Act against Drummac for submitting claims for payment despite not
meeting the terms of its contract with the Government. The Government was prepared to
contend that Drummac submitted claims for payment even though Drummac knew that
the terms of its contract with Amtrak were not being met when the Vermonter train was
not shut down and not connected to external power.

       Drummac cooperated with the Government’s investigation in this matter, disputed
the Government’s claim, and denied liability. Under the settlement agreement, Drummac
paid the United States $100,000 to resolve its potential civil liability.

      The case was investigated by Amtrak’s Office of Inspector General. Assistant
United States Attorney Nikolas Kerest handled the matter for the United States.
Drummac was represented by Martin Sitler, Esq., of Jacksonville, Florida.
